APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

Case No: 19-2493

Rohit Kumar
Plaintiff - Appellant
v.
William P. Barr, Attorney General of United
States (Matthew G. Whittaker named on original
complaint); Joseph P. Kelly; Jessie K. Liu
Defendants - Appellees

Appeal from U.S. District Court for the District of
Nebraska - Omaha
(8:l8-cv-00578-JMG)
Dec 20, 2019

la

JUDGMENT

Before STRAS, WOLLMAN, and ROBES, Circuit
Judges.
This appeal from the United States District Court
was submitted on the record of the
district court and briefs of the parties.
After consideration, it is hereby ordered and
adjudged that the judgment of the district
court in this cause is affirmed in accordance with
the opinion of this Court.
December 20, 2019

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans
Appellate Case: 19-2493
Date Filed: 12/20/2019

Entry ID: 486405

2a

APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
OMAHA DIVISION

Docket No^ 8:i8-CV-578
MEMORANDUM AND ORDER

Filed: 05/28/19

This matter is before the Court on the defendants'
motion to dismiss (filing 12). Because the Court finds
that the plaintiff has failed to state a claim upon
which relief may be granted, the Court will dismiss
his complaint pursuant to Fed. R. Civ. P. 12(b)(6).
Although the plaintiffs pleadings are lengthy, see
filing 1; filing 16, his factual allegations are simple:
he accuses (former) officials of the Department of
Justice of engaging in "criminal activity" which has
resulted in "24by7 illegal FBI Surveillance" against
him. Filing 1 at 4-5. He blames this criminality on
(former) Deputy Attorney General Rod Rosenstein,
(former) Special Counsel Robert Mueller, and
(former) FBI Director James Comey, acting to further
3a

the criminal conduct of "W and Hussein" (presumably
former Presidents George W. Bush and Barack
Obama). Filing 1 at 4. Despite that, the defendants
actually named in his complaint are (former) Acting
Attorney General Matthew Whitaker, U.S. Attorney
for the District of Nebraska Joe Kelly, and U.S.
Attorney for the District of Columbia Jessie Liu.2
Filing 1 at 2.
A complaint must set forth a short and plain
statement of the claim showing that the pleader is
entitled to relief. Fed. R. Civ. P. 8(a)(2). This standard
does not require detailed factual allegations, but it
demands more than an unadorned accusation.
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). For the
purposes of a motion to dismiss the Court must take
all of the factual allegations in the complaint as true,
but is not bound to accept as true a legal conclusion
couched as a factual allegation. Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007). And to survive a
motion to dismiss under Rule 12(b)(6), a complaint
must also contain sufficient factual matter, accepted
as true, to state a claim for relief that is plausible on
its face. Iqbal, 556 U.S. at 678.
A claim has facial plausibility when the plaintiff
pleads factual content that allows the Court to draw
the reasonable inference that the defendant is liable
for the misconduct alleged. Id. The Court must
assume the truth of the plaintiffs factual allegations,
and a well-pleaded complaint may proceed, even if it
strikes a savvy judge that actual proof of those facts
is improbable, and that recovery is very remote and
unlikely. See Twombly, 550 U.S. at 556. But where
the well-pleaded facts do not permit the Court to infer
more than the mere possibility of misconduct, the
4a

complaint has alleged—but has not shown—that the
pleader is entitled to relief. Iqbal, 556 U.S. at 679.
The plaintiff has not shown that he has entitled to
relief here, for three primary reasons. First, there is
no particular connection between the surveillance the
plaintiff alleges and the defendants he chose to sue.
An actionable claim requires an injury fairly
traceable to the challenged action of the defendants,
not the result of independent action of some third
party not before the Court. Stamm v. Cty. of
Cheyenne, Neb., 326 F. Supp. 3d 832, 859 (D. Neb.
2018).
Second, even if some connection could be assumed
based on the official duties of these official-capacity
defendants, the alleged facts do not establish
illegality—and whether challenged conduct is
"illegal" is by definition a legal conclusion the Court
is not obliged to accept as true. Twombly, 550 U.S. at
555. The plaintiff alleges he is being surveilled by the
FBI—but not all surveillance is unlawful. Even very
intrusive surveillance can be authorized by a court.
See United States v. U.S. Dist. Court for E. Dist. of
Mich., S. Div., 407 U.S. 297, 321 (1972). And a good
deal of "surveillance" doesn't even require that. See
Kyllo v. United States, 533 U.S. 27, 31-32 (2001); cf.
United States v. Jones, 565 U.S. 400, 429 (2012). The
facts the plaintiff alleged might permit the Court to
infer the possibility of misconduct, but they do not
show he is entitled to relief. Iqbal, 556 U.S. at 679.
The plaintiffs pleadings, in fact, tender no more than
a naked assertion, devoid of further factual
enhancement. See id. at 678.3

5a

Finally, the plaintiff has also failed to clear the bar of
stating a claim that is "plausible on its face." See id.
The complaint simply provides no basis to believe that
two former presidents, and several former highranking members of the Justice Department, have
taken an interest in what the plaintiff is doing at all
times—nor any basis to believe that all those former
federal officials retain any authority over the FBI.
(And because it appears the plaintiffs requested relief
is forward-looking, see filing 16 at 11, the authority
of the people he actually accuses of misconduct is
highly pertinent.) Even if his allegations of
surveillance are accepted, despite being "unrealistic
or nonsensical," the conspiracy the plaintiff alleges
isn't plausible. See id. at 681.4 In sum, the Court
concludes that the plaintiffs bare allegation of "FBI
surveillance" is insufficient to state a claim for relief.
Accordingly, the Court will grant the defendants'
motion to dismiss.
IT IS ORDERED:
The defendants' motion to dismiss (filing 12) is
granted.
The plaintiffs complaint is dismissed.
A separate judgment will be entered.
Dated this 28th day of May, 2019.

6a

BY THE COURT:
S/
John M. Gerrard
Chief United States District Judge

For the sake of completeness, the Court notes the
plaintiffs "disclosure" (filing 23), which the Court
struck as an amended pleading not authorized
pursuant to the Court's rules. But even if properly
presented, that filing—which purports to connect the
alleged conspiracy to other misfortunes, such as the
denial of the plaintiffs visa application and the loss of
his job—does not state a plausible claim for relief.
While the Court is not unsympathetic to the plaintiffs
hard luck, he has not alleged facts sufficient to
connect those events to a conspiracy.

7a

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE EIGTH CIRCUIT

No: 19-2493

Rohit Kumar
Plaintiff - Appellant
v.
William P. Barr, Attorney General of United States
(Matthew G. Whittaker named on original
complaint); Joseph P. Kelly; Jessie K. Liu
Defendants - Appellees

Appeal from U.S. District Court for the District of
Nebraska - Omaha
(8:i8-cv-00578-JMG)

8a

ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC

ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
January 16, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans
Appellate Case: 19-249
Date Filed: 01/16/2020 Entry ID: 4871800

9a

